         U.S. Department of Energy
         Office of Inspector General
         Office of Audit Services




Audit Report
Report on Management Controls
Over the Licensing Support
Network for the Yucca Mountain
Repository




OAS-M-04-04                            May 2004
REPORT ON MANAGEMENT CONTROLS OVER THE LICENSING
SUPPORT NETWORK FOR THE YUCCA MOUNTAIN REPOSITORY

TABLE OF
CONTENTS




               Licensing Support Network


               Details of Finding .............................................................1


               Recommendations and Comments ..................................3


               Appendices


               Objective, Scope, and Methodology ................................5


               Management Comments ..................................................6


               Prior Reports ....................................................................9
LICENSING SUPPORT NETWORK
Background               The Department identified a number of steps that had to be
                         accomplished prior to making its documents available on the
                         Network. Initially, relevant documents have to be identified and
                         captured from each of its organizations and contractors. Then, the
                         documents must be reviewed for legibility; a bibliographic header
                         must be added; and each document has to be screened to ensure that
                         sensitive unclassified, Privacy Act, or privileged information is not
                         released to the public. Once relevant documents are processed
                         through these steps, they are posted to the Department's website.

                         Once posted to the Department's website, the documents will be made
                         available for indexing by the NRC. The NRC will then search the
                         information for key words and build indices into the Network. After
                         indexing is complete, the documents will be available to the public.
                         Although the Department plans to submit its license application in
                         December 2004, the NRC will not begin the license application
                         proceedings unless all documents are available for public review
                         through the Network for at least six months.

Capturing, Processing,   As of March 10, 2004, the Department estimated that it had captured
and Screening            87 percent and processed 71 percent of the relevant documents.
Documents                Nearly all documents had been captured including those in the records
                         management system, which is a database of program records;
                         electronic files; and, electronic mails. In particular, personnel
                         associated with the Yucca Mountain Project had reviewed 1.4 million
                         of the Department's 6.4 million electronic mail documents and
                         anticipated finishing its review by June 2004. Finally, OCRWM
                         developed the software needed to screen all documents for privileged
                         and Privacy Act information and began processing in late February
                         2004. OCRWM anticipates that all documents will be screened for
                         privileged and Privacy Act information before the initial certification
                         date. While most paper documents had been captured, efforts related
                         to databases and computer programs remained incomplete.

Management Structure     In August 2003, at the start of our audit, we observed that
                         organizational impediments had the potential to impact completion of
                         the Department's Network goals. In particular, we observed that
                         management responsibility for the effort was shared by two separate
                         organizations. The Office of the General Counsel served as the
                         primary technical point of contact and directed interactions with the
                         Network contractor. OCRWM was responsible for integrating the
                         Department's efforts to the overall licensing strategy, interacting with




Page 1                                                                     Details of Finding
                       the NRC, and providing access to the Yucca Mountain project records,
                       personnel, and facilities. During the audit, OCRWM management
                       informed us that it was modifying the management structure to correct
                       these weaknesses as part of a baseline change proposal.

Availability of        Based on recent plans, the Department did not intend to make
Documents to the NRC   documents available to the NRC until the June 2004 certification date.
                       However, in February 2004, the NRC requested access to the
                       documents in advance of the initial certification date. Since NRC needs
                       access to the documents to begin the indexing process, the earlier the
                       documents are provided to the NRC, the faster the documents can be
                       available to the public. While tentative agreement was reached with the
                       NRC to start making the documents available, the details of such an
                       agreement have yet to be finalized. Should they be able to finalize
                       terms of the agreement in the short-run, OCRWM officials estimated
                       that they could start providing documents to the NRC for indexing in
                       April 2004.

Remaining Challenges   Despite significant movement, the Department still faces a number of
                       obstacles in preparing the Network for initial certification and ensuring
                       that documents are available for public review by June 2004.
                       Specifically, the majority of the documents have yet to be screened for
                       privileged and Privacy Act information. In February 2004, the
                       Department implemented a newly designed software package and
                       began processing documents; however, it had not yet evaluated whether
                       the system was effective and was properly identifying information that
                       should not be disclosed. Further, OCRWM had not developed a plan
                       addressing how databases and computer programs would be captured
                       and processed.

                       Additionally, about 6.4 million electronic mail documents have not
                       been processed, of which 3.1 million belong to personnel currently
                       associated with the Yucca Mountain Project. The Department initially
                       planned to use software to eliminate irrelevant items. However, after it
                       developed and tested the software, it determined that the software was
                       not functioning as intended. Because of these problems, officials
                       determined that personnel still associated with the Yucca Mountain
                       Project must manually review their electronic mail documents for
                       relevancy and initiated this process in late February 2004. These
                       manual reviews, daunting due to the sheer volume of information that
                       must be processed, have the potential to delay the posting process.




Page 2                                                                    Details of Finding
                  Department officials told us that they were still trying to improve the
                  effectiveness of the software in hopes of using it to process the
                  remaining 3.3 million electronic mail documents.

                  Finally, the Department still needed to provide its documents to the
                  NRC for indexing. As of February 2004, program officials anticipated
                  that they would start providing documents to the NRC in April 2004.
                  Since the NRC can only index about 150,000 documents per week
                  however, it could take between 5 and 13 months to index the
                  Department's 3 million to 8.5 million documents. Unless the
                  Department takes additional action to improve delivery to the NRC for
                  indexing, the availability of the documents to the public could be
                  delayed until as late as May 2005. Ultimately, the inability of the
                  Department to meet the deadline for Network posting could adversely
                  affect the completion of the license application by the House-imposed
                  deadline.

RECOMMENDATIONS   We recommend that the Deputy Director for OCRWM's Office of
                  Repository Development minimize the delays associated with
                  populating the Network by:

                     1. Evaluating the effectiveness of the Privacy Act screening
                        software and determining if it is a viable tool for document
                        processing.

                         •   If so, fully implement the software for use on the remaining
                             documents.
                         •   If not, identify and implement an alternative method for
                             screening the documents for Privacy Act information.

                     2. Completing the implementation of the software to process the
                        electronic mail associated with the Yucca Mountain Project.

                     3. Developing a plan and begin processing information maintained
                        in other relevant databases and computer programs.

                     4. Finalizing the agreement regarding document availability and
                        indexing with the NRC.




Page 3                                                              Recommendations
MANAGEMENT         The Deputy Director for OCRWM's Office of Repository Development
REACTION           generally concurred with the report's finding and recommendations and
                   has initiated corrective actions to minimize the delays associated with
                   populating the Network. These corrective actions are scheduled for
                   completion before June 2004. Management believes the Department
                   will have between 3 to 4 million documents for the Network; however,
                   management will provide the NRC with a revised estimate within the
                   next few weeks. Management's comments are included in Appendix 3
                   in their entirety.

AUDITOR COMMENTS   Management's actions, should, when implemented, address the
                   challenges discussed in our report.




Page 4                                                                      Comments
Appendix 1
OBJECTIVE     Our objective was to determine if the Department's portion of the
              Network will be ready for initial certification and available for public
              review by June 2004.

SCOPE         The audit was performed between August 2003 and March 2004, at the
              Office of Repository Development in Las Vegas, Nevada. We also
              interviewed personnel from the OCRWM, Office of the General
              Counsel, and the Department of Justice in Washington, DC. The scope
              was limited to the Department's activities associated with the Network.

METHODOLOGY   To accomplish the audit objective we:

                 •   Obtained and reviewed the Nuclear Waste Policy Act, as
                     amended; Code of Federal Regulations; and other guidelines
                     and requirements related to the Network;

                 •   Reviewed planning documents and status reports for the
                     Network program;

                 •   Reviewed findings from prior audits regarding the Network;

                 •   Interviewed program and contract personnel;

                 •   Assessed internal controls and performance measures
                     established under the Government Performance and Results Act
                     of 1993; and,

                 •   Analyzed performance, timelines, and target completion dates.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Specifically, we
              tested controls with respect to the Department's planning process for
              meeting the June 2004 initial certification date. Because our review
              was limited, it would not necessarily have disclosed all internal control
              deficiencies that may have existed at the time of our audit. We did not
              rely on computer processed data to accomplish our audit objective.

              We coordinated the contents of the audit with management throughout
              the audit. As a result of the coordination, management waived an exit
              conference.




Page 5                                        Objective, Scope, and Methodology
Appendix 2




Page 6       Management Comments
Appendix 2 (continued)




Page 7                   Management Comments
Appendix 2 (continued)




Page 8                   Management Comments
Appendix 3

                                          PRIOR REPORTS

  Office of Inspector General Reports

  •   Management Challenges at the Department of Energy (DOE/IG-0626, November 2003). The
      report identified that while the Department has made great strides in addressing the inherent
      risks in the environmental cleanup, it has not consistently met its goals or integrated its
      programs for site cleanup and waste disposal. The report also identified that the Department
      has been criticized for many years for weaknesses in its project management. For example, the
      Department lacks sufficient control over its projects, ultimately resulting in projects with cost
      and schedule overruns. In addition, the Department lacks consistency and continuity of apply-
      ing project management principles, risk management, and contingency.

  •   Review of Alleged Conflicts of Interest Involving a Legal Services Contract for the Yucca
      Mountain Project (DOE-OIG-I01IG001, November 2001). The Office of Inspector General
      reviewed the contract the Department awarded to a law firm to assist the Department during the
      license application process. The law firm had not disclosed lobbying and non-lobbying work
      that was potentially a conflict of interest.

  General Accounting Office Reports

  •   Major Management Challenges and Program Risks - Department of Energy (GAO-03-100,
      January 2003). This report addresses the major management challenges facing the Department
      as it works to carry out its multiple and highly diverse missions. The General Accounting
      Office (GAO) found that the Department continued to have difficulty keeping some of its major
      projects on schedule and within budget. For example, the Department's original 1992 baseline
      for the Yucca Mountain Project estimated a total project cost of $6.3 billion and a completion
      date of October 2001 for submitting the license application. According to the Department's
      latest estimate, the license application will not be submitted until December 2004, with an
      estimated cost of almost $8.4 billion.

  •   Technical, Schedule, and Cost Uncertainties of the Yucca Mountain Repository Program
      (GAO-02-191, December 2001). This audit report determined that the Department lacks
      information for the license application and their license application milestone date was not
      supported by the program's baseline. GAO said the Department was unlikely to achieve its goal
      of opening the repository by 2010 and the Department did not have a reliable estimate of when
      and at what cost such a repository could be opened.




Page 9                                                                                   Prior Reports
                                                                  IG Report No: OAS-M-04-04


                              CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers'
requirements and, therefore, ask that you consider sharing your thoughts with us. On the back
of this form, you may suggest improvements to enhance the effectiveness of future reports.
Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the audit would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in this report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have
any questions about your comments.

Name____________________________________Date________________________________

Telephone________________________________Organization__________________________

When you have completed this form, you may fax it to the Office of Inspector General at
(202) 586-0948 or you may mail it to:

               Office of Inspector General (IG-1)
               U.S. Department of Energy
               Washington, D.C. 20585
               ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:


              U.S. Department of Energy Office of Inspector General, Home Page
                                   http://www.ig.doe.gov


  Your comments would be appreciated and can be provided on the Customer Response Form
                                 attached to the report.
